■SO-TSTO
In the Supreme Court of the United States
STEVEN COOPER
Petitioner,

v.

mima

STATE OF FLORIDA
Respondents,

FILED
MAR 0 8 2021
OFFICE OF THE CLERK
SUPREME COURT. U S

PETITION FOR WRIT OF CERTIORARI TO THE FLORIDA
FIRST DISTRICT COURT OF APPEALS, RE: 1DCA NO.- 1D20-2553

/s/Steven Cooper. Pro Se
PO Box 18617
Panama City Beach, FL 32417
AdversePossessionIsNotACrime@gmail com
850-312-5243

QUESTION PRESENTED
1. Whether it is appropriate for a capias to be issued after a defendant makes
the required written waiver of presence as allowed for by the Florida Rules
of Criminal Procedure of which affords a defendant the right to waive its
presence at pretrial conferences upon filing a written waiver.
2. Whether a public defender has the right to deny a defendant the right to
waive their presence as afforded by the Florida Rules of Criminal Procedure.
3. Whether a circuit court has the right to refuse to accept a written waiver of
presence filed pro per, after receiving a motion to discharge incompetent
ineffective counsel and notice of adversarial relationship.
; 4. Whether a judgment denying mandamus relief without explanation by the
Florida First District Court of Appeal is unconstitutional.
5. Whether it is unconstitutional for a citizen to be arrested for trespass, grand
theft and criminal mischief simply for adversely possessing real property.

RELATED CASE
1. SCOTUS Case NO. 20-6207

Case No

In the Supreme Court of the United States
STEVEN COOPER
i

Petitioner,

*

v.
STATE OF FLORIDA
Respondents,

PETITION FOR WRIT OF CERTIORARI TO THE FLORIDA
FIRST DISTRICT COURT OF APPEALS, 1DCA NO.- 1D20-2553

Petitioner, Steven Cooper, humbly and respectfully asks that a writ of
certiorari issue to review the judgment issued without opinion by the Florida First
District Court of Appeal, 1DCA# 1D20-2553, filed on August 31, 2020..

OPINION BELOW
The judgment issued without opinion by the First District Court of Appeal
was issued on December 7, 2020. An appeal to The Florida Supreme Court was
not submitted given it does not have jurisdiction to review decisions issued by the

First District Court without a written explanation of its decision. This appeal
serves as the only available review of the First District Courts opinion denying the
mandamus petition.
JURISDICTION
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a). The
decision for which petitioner seeks review was issued on December 7, 2020, this
petition filed within 90 days of that decision as the the ninetieth day was a Sunday,
is for discretionary review under Rules 13.1 and 29.2 of this Court.
CONSTITUTIONAL PROVISIONS AND STATUTES INVOLVED
• United States Constitution, Amendment 5 provides, in pertinent part:

No

person shall... be deprived of life, liberty, or property without due process of
law....
• United States Constitution, Amendment 7 provides, in pertinent part:
Where the value in controversy shall exceed twenty dollars, the right of trial
by jury shall be preserved... according to the rules of the common law.
• United States Constitution, Amendment 14 Section 1 provides, in relevant part:
No State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive any
person of life, liberty, or property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of die laws.

\

• United States Code 28 USC1361: Action to compel an officer provides, in
relevant part:

Courts shall have original jurisdiction of any action in the

nature of mandamus to compel an officer or employee or any agency to perform
a duty owed...
• Florida Statute for Adverse Possession without Color of Title section 95.18
provides, in relevant part:

(9) A person who occupies... solely by claim of

adverse possession... prior to making a return as required under subsection (3),
commits trespass.
STATEMENT OF CASE
This Petition follows willful manifest injustice attack upon a law-abiding
adverse possessor l) unlawfully trespassed 2) falsely arrested 3) maliciously
prosecuted 4) intentionally deprived of fundamental rights. Petitioner is a victim of
an onslaught of grotesque negligence by State Constitutional Offices and its
Officers in opposition of Florida Statutes as an attack upon his adverse possession
and in retaliation to his complaints.

An adverse possessor, after lawfully

establishing adverse possession in compliance with Florida Statute 95.18,
petitioner was trespassed then later arrested and charged with grand theft a year
later only after making a formal complaint to the Sheriff’s office and initiating civil
action against the Sheriffs office in an attempt to have the property returned.
Mandamus was sought to compel the Sheriffs Office to perform its duty to enforce

/

and comply with the laws of Florida of which provide the statutory right to
adversely possess real property, additionally specifying trespass is only applicable
when the required notice form is not submitted and theft is only applicable if the
property is leased to another, again prior to submitting the required form.
Petitioner was first criminally trespassed from his adversely possessed
property in April of 2018. Then, after thirteen months of civil litigation, retaliatory
arrested for grand theft and criminal mischief by a warrant issued thirteen days
after submission of a written complaint,

Since the arrest he has received

incompetent, intentionally-ineffective assistance of counsel and biased unfair
prejudice from the court such as ignoring a written waiver of appearance followed
by issuance of a failure to appear capias.
Petitioner elected to waive his constitutional right to be present at a
December 17th pretrial conference and directed the assigned public defender to file
a written waiver in accordance with Florid Rules of Criminal Procedure
3.180(a)(3) and 3.220(o)(l). Evidence of an adversarial relationship, the
incompetent public defender prejudicially refused, thus requiring the written
waiver be made pro per. At the States' request, with no objection or representation
provided by the assigned public defender whom was present, the trial court issued
a capias with a $7,500 bond. Petitioner seeks to have the Written Waiver of
Appearance recognized and the capias thereby quashed.

& "
)

REASONS FOR GRANTING THE PETITION
Fla. R. Crim. P. 3.180(a)(3) states the presence of a defendant in all
prosecutions for crime shall be present... at any pretrial conference unless waived
by the defendant in writing. Additionally, Fla. R. Crim. P. 3.220(o)(l) states the
trial court may hold pretrial conferences to consider matters as will promote a fair
and expeditious trial to which the defendant shall be present unless the defendant
waives this in writing.
On December 1, 2019, petitioner filed a Motion to Discharge Incompetent
Ineffective Counsel, therein alerting the court on an adversarial relationship with
counsel. Having received no response, on December 13, 2019, petitioner directed
the public defender to file a written waiver of appearance on behalf of the
defendant. After the public defender refused, clearly stating, “you are represented
by counsel and I am not filing a waiver of your presence”, petitioner filed the
Written Waiver of Appearance on December 16, 2019. Despite filing the waiver,
and the public defender present in representation of the petitioner, the court issued
a capias upon request of the state and no objection made by the public defender
despite the written waiver.
CONCLUSION
Florida Rules of Criminal Procedure allows for a defendant to waive
presence at pretrial conferences upon written waiver. Petitioner directed counsel to

(

file a written waiver as per the rules. Counsel refused without authority to do so,
directly prejudicing the petitioner. Petitioner was forced to file the required written
waiver pro per and did so more than two weeks after notifying the court of an
adversarial relationship and seeking to discharge the public attorney. For these
simple reasons the capias should never have been issued, the First District Court of
Appeal should have granted the Mandamus relief sought or at a very minimum
provided at least one sentence to support their refusal to do so. As a result of these
improprieties, petitioner respectfully asks this honorable Court to grant the
mandamus relief sought and squash the capias.

Respectfully submitted,
/s/Steven Coooer. Pro Se

